Inspection Report I-98-07
U.S. DEPARTMENT OF JUSTICE
OFFICE OF THE INSPECTOR GENERAL
INSPECTIONS DIVISION
INSPECTION OF IMMIGRATION OFFICER TRAINING
Report Number I-98-07
March 1998
TABLE OF CONTENTS
Transmittal Memorandum
Introduction
Immigration Officer Basic Training
INS Substantially Met Its FY 1996 and 1997 Basic Training
Goals for Immigration Officers
The Quality of Inspector Training at Charleston Was Consistent
with Glynco, but Did Not Include Law Enforcement Subjects
IOA Language Training May Not Meet the Needs of All Immigration
Officers
INS Needs to Complete the Validation of IOA Basic Training Courses
Exportable Training May Prove to be Efficient and
Effective, but Has Experienced Considerable Delays and Needs More Training Division
Oversight
Other Immigration Officer Training
INS is Addressing Supervisory Training Needs,
but Large Numbers of Immigration Officers Need Advanced Training
INS Has Not Yet Provided Any General Arrest
Authority Training Mandated by the Immigration Act of 1990
Conclusions And Recommendations
Appendix I Immigration and Naturalization Service
Response to Draft Report
Appendix II Office of the Inspector General's
Analysis of Management's Response
MEMORANDUM FOR DORIS MEISSNER
COMMISSIONER
IMMIGRATION AND NATURALIZATION SERVICE
FROM:
MICHAEL R. BROMWICH
INSPECTOR GENERAL
SUBJECT:
Inspection of Immigration Officer Training,
Report Number I-98-07
The Inspections Division has completed a review of Immigration Officer Training in the
Immigration and Naturalization Service (INS). The scope of our work included training for
Special Agents, Immigration Agents, Deportation Officers, Detention Enforcement Officers,
Immigration Inspectors, Adjudications Officers, Asylum Officers, and Information Officers.
We interviewed INS Training Division staff at headquarters and at Immigration Officer
Academy (IOA) training facilities in Glynco, GA; Charleston, SC; and Artesia, NM. We
travelled to Glynco and Charleston to observe training conducted at those sites. We also
travelled to INS field offices to interview IOA graduates, supervisors, and management.
Sites visited included the Western Region Office and the California Service Center in
Laguna Niguel, CA; the Central Region Office and Texas Service Center in Dallas, Texas;
and district offices in Los Angeles, San Diego, El Paso, Dallas, and New York City.
During Fiscal Years (FY) 1996 and 1997, INS has faced the challenge of hiring record
numbers of new Immigration Officers and Border Patrol Agents. Providing basic training for
these new officers and agents became INS' primary training priority. To increase its basic
training capacity, INS opened an adjunct training facility in Charleston, developed
exportable basic training courses for delivery at field sites, and suspended advanced
training.
INS provided basic training for substantially all of the new Immigration Officers hired
in FY 1996. INS hired and started training for approximately 2,100 new Immigration
Officers in FY 1996. Hiring and scheduling of training was well coordinated and
newly-hired officers began training promptly upon entering on duty. In FY 1997, INS
projected starting IOA basic training for approximately 1,700 newly-hired Immigration
Officers. Sufficient classes were scheduled and conducted at IOA facilities in Glynco and
Artesia to accommodate these officers.
Because INS training needs exceeded the available capacity of IOA facilities in Glynco,
approximately 500 Immigration Inspectors were trained in FY 1996 at INS' adjunct training
facility in Charleston. The quality of training for those classes delivered in Charleston
was consistent with that of Glynco. However, INS did not provide law enforcement training,
including weapons instruction and qualification, for Immigration Inspectors trained in
Charleston. By March 1, 1997, approximately 200 of the total 500 Inspectors had not
received law enforcement training. Thirty-three of these partially-trained, unarmed
Immigration Inspectors were stationed at land-border ports of entry along the Southwest
border where Inspectors normally perform their duties while armed. As of the end of FY
1997, all but two of these Immigration Inspectors had completed their training in Glynco.
We believe that in the future, INS should not assign unarmed inspectors, who have not
received law enforcement training, to land-border duty stations.
INS developed exportable basic training courses for several benefits-related
occupations that are designed to be offered at locations other than IOA facilities.
Exportable basic training will relieve the severe strain on training capacity at IOA
facilities and may prove to be an efficient and effective alternative to academy-based
training. While almost 600 benefits-related officers were projected to be hired in FY
1997, the exportable training was delayed twice. What exportable training was eventually
conducted was primarily for Information and Asylum Officers. Only two exportable basic
training courses were conducted in FY 1997 for Adjudications Officers. INS has also
provided exportable training to several hundred temporary staff hired as part of the
Citizenship USA program to adjudicate naturalization applications. Neither the Training
Division nor any other INS headquarters organization provided oversight over the training
given to these temporary adjudicators, which was delivered inconsistently from site to
site. We believe that INS needs to provide sufficient oversight of the delivery of all
exportable training to ensure standards of consistency and quality.
Beginning in FY 1996, most of the journeyman, supervisory, and management training was
suspended to increase INS' basic training capacity. Journeyman training was resumed in FY
1997 and, of the approximately 2,500 Immigration Officers needing this training,
approximately 900 received it by the end of the FY. In March 1996, the INS Training
Division began supervisory and management training at its new Leadership Development
Center in Dallas. The Leadership Development Center has eliminated the backlog of
supervisors needing training.
Spanish language instruction is included in the curricula of all IOA basic training
courses except for Other-Than-Permanent Inspectors. We found that IOA language training
may not meet the needs of all Immigration Officers. Identical Spanish language courses are
provided to most IOA classes, regardless of occupation or anticipated duty station. A
majority of INS supervisors with whom we spoke are concerned that a significant number of
recent IOA graduates in certain job categories lack the Spanish language proficiency
necessary for their job. These job categories include Special Agents, Immigration Agents,
and Immigration Inspectors stationed along the Southwest border. Most IOA graduates we
interviewed in these job categories also stated that their IOA Spanish language training
did not adequately prepare them for their jobs. We believe INS should thoroughly review
IOA Spanish training to ensure that all Immigration Officers have the language skills
necessary for optimum job performance.
A professional training program requires the periodic validation of training courses to
ensure that course material is current, accurate, and relevant. INS' standard operating
procedures require validating IOA training courses at least every five years. INS,
however, has failed to complete current validations for most IOA basic training courses.
Additional Immigration Officer training was made necessary by the Immigration Act of
1990 (IMMACT 90). IMMACT 90 expanded the arrest authority of designated INS officers from
solely immigration-related violations to all crimes under Federal law. IMMACT 90
stipulates that this expanded arrest authority, referred to as general arrest authority,
will not be conferred until officers have completed relevant training. INS has not yet
provided the training necessary to confer general arrest authority on its officers. We
believe INS should begin the necessary training as soon as possible.
In summary, INS has succeeded in providing basic training for unprecedented numbers of
newly-hired Immigration Officers. However, some training needs require further attention.
Our report contains three recommendations that we believe will assist INS in meeting the
training needs of Immigration Officers. These recommendations include improving the
oversight of exportable basic training programs, completing basic training course
validations, and beginning general arrest authority training.
We sent copies of the draft report to your office on September 11, 1997, and requested
written comments on the findings and recommendations. Your December 10, 1997, response
addressed each of the three recommendations. We have attached your response as Appendix I.
On the basis of your written comments and subsequent phone conversations, we considered
two recommendations resolved and one recommendation unresolved and have kept them all open
pending further action. Appendix II explains why the one
recommendation was not resolved and what actions are needed.
Please respond to the unresolved recommendation within 45 days of the date of this
memorandum. Your response should provide the additional information requested. If actions
have not been completed, please provide projected completion dates. Guidance on report
follow-up and resolution can be found in Department of Justice Order 2900.10.
We hope our comments, suggestions, and recommendations in the attached report will be
useful in your efforts to address these issues. We appreciate the cooperation extended to
our Inspections Division staff during the review. If you have any suggestions how we might
improve our review process, or if we can provide you with additional information, please
let us know.
Attachment
cc: Kathleen Stanley
Liaison
Immigration and Naturalization Service
Vickie L. Sloan
Director
Audit Liaison Office
INTRODUCTION
The commitment of the Administration and the Congress to implement a comprehensive
immigration initiative required hiring and training record numbers of new Immigration
Officers and Border Patrol Agents in Fiscal Years (FY) 1996 and 1997.1 On October 1, 1995, the Immigration and Naturalization
Service (INS) established the Growth Management Project to plan, coordinate, and evaluate
the hiring, training, and deployment of these new officers and agents. With an end of year
total of approximately 13,000 officers and agents in FY 1995, the Growth Management
Project planned hiring approximately 5,000 new Immigration Officers and Border Patrol
Agents in FY 1996 and about 4,000 in FY 1997. Providing basic training for these new
officers and agents has become INS' primary training priority. INS realized that growth of
this magnitude would put a severe strain on existing training facilities and systems and
it undertook an effort to increase its basic training capacity.
Prior to FY 1996, all Immigration Officers and Border Patrol Agents were trained at the
Federal Law Enforcement Training Center (FLETC) facilities in Glynco, Georgia, and
Artesia, New Mexico.2 Law enforcement personnel from
over 70 Federal organizations are trained at these facilities. Because of the training
demands from its participating agencies and limited facility space, FLETC could not
accommodate all of INS' training needs at Glynco and Artesia. Given this limitation and
its enormous training needs, INS has been forced to make some adjustments in training
programs and adopt training alternatives. One of these alternatives was the opening in FY
1996 of an adjunct training facility in Charleston, South Carolina.3 This facility is used primarily for training Border
Patrol Agents, but some Immigration Officers received partial training there in FY 1996.
Another alternative used by INS is field-delivered exportable training for the
benefits-related occupations of Adjudications Officer, Asylum Officer, and Information
Officer. INS also suspended all advanced training to devote more of its training resources
to basic training.
Immigration Officer training is primarily the responsibility of INS' Training Division,
located within the Human Resources and Development Office. The Training Division plans,
designs, and delivers Immigration Officer training through its Immigration Officer Academy
(IOA), headquartered and located predominately in Glynco. The IOA also maintains a smaller
presence in Artesia and some IOA elements were temporarily assigned to Charleston during
FY 1996. The Training Division operates a separate Border Patrol Academy, also
headquartered in Glynco.
The Immigration Officer Basic Training Course is the initial training for new
Immigration Officers and provides instruction on general immigration topics and
job-specific areas. Separate curricula are currently taught for Immigration Inspectors,
Other-Than-Permanent (OTP) Inspectors, Special Agents, Immigration Agents, Deportation
Officers, Detention Enforcement Officers, Adjudications Officers, Asylum Officers, and
Information Officers. Advanced training is designed for officers who have reached the
journeyman level. It covers job-specific topics, especially advanced material, as well as
updates on immigration law. Officers who reach supervisory or management levels are
eligible for courses offered by the Training Division's new Leadership Development Center
in Dallas, Texas.
IMMIGRATION OFFICER BASIC TRAINING
Immigration Officer Basic Training consists of four primary segments of instruction.
These segments, called modules, are usually integrated during the training course, but can
and have been delivered separately. Module I contains immigration law, and this curriculum
is identical for all Immigration Officers. Module II is activity preparation and contains
the operational training specific to each different officer occupation. Module III is the
law enforcement segment. This segment is conducted primarily by FLETC and includes
firearms, arrest techniques, constitutional law, and driver's training. Module IV is the
Spanish language segment. This segment is currently similar for all Immigration Officers
who receive Spanish language training, except Detention Enforcement Officers who get an
abbreviated Spanish course. The table below shows the types of basic training received by
each category of Immigration Officer.
Types of Basic Training Received by Immigration Officers by Job Category
Job Category
Module I -Imm. Law
Module II -Acty. Prep.
Module III -Law Enf.
Module IV -Spanish
Alternate Training
Total Course Time
Special Agent
Yes
Yes
Yes
Yes
18 weeks
Imm. Agent
Yes
Yes
Yes
Yes
15 weeks
Deport. Officer
Yes
Yes
Yes
Yes
15 weeks
Det. Enf. Officer
Modified Modules I-IV
7 weeks
Inspector
Yes
Yes
Yes
Yes
15 weeks
OTP Inspector
Modified Modules I-III
4 weeks
Adjudications Officer
Yes
Yes
No*
No*
Approximately 5 weeks
Temp. CUSA Examiner
Naturalization Training
1-2 weeks
Asylum Officer
Yes
Asylum Version
No
No
Approximately 5 weeks
Information Officer
Yes
Yes
No
No
Approximately 5 weeks
* Adjudications Officers are not required to receive Modules III and IV at this time.
Source: OIG Inspections research
INS Substantially Met Its FY 1996 and 1997 Basic
Training Goals for Immigration Officers
Use of an adjunct training site in Charleston and development of exportable training
enabled INS to increase its training capacity and provide basic training for substantially
all of the new Immigration Officers hired in FY 1996. INS hired and started training for
approximately 2,100 new Immigration Officers in FY 1996. Hiring and scheduling of
training was well coordinated and newly-hired officers began training promptly upon
entering on duty. For FY 1997, INS projected the IOA would initiate training for
approximately 1,700 newly-hired Immigration Officers. Sufficient classes were conducted at
Glynco and Artesia to accommodate these officers, and INS achieved its FY 1997 IOA basic
training goals.
The INS Growth Management Project projected the IOA would initiate training for 2,020
Immigration Officers in FY 1996. INS actually commenced IOA basic training for 2,094
Immigration Officers during the fiscal year. Of the Immigration Officers beginning
training, approximately 1,650 successfully completed their training, with another 330
Inspectors who needed to finish the Law Enforcement Module in FY 1997. All of these
Immigration Officers were trained at either one of the FLETC training academy centers, or
the adjunct facility in Charleston. In FY 1997, INS conducted all academy-based
Immigration Officer training at the FLETC facilities in Artesia and Glynco.
INS' Administrative Center in the Twin Cities coordinates hiring and scheduling basic
training for new Immigration Officers. The Center consistently schedules new officers for
training shortly after they are hired. In most cases, officers start training within
several days after entering on duty. As a result, the carry-over from FY 1996 to FY 1997
of newly-hired Immigration Officers awaiting training was not significant.
For FY 1997, the INS' Growth Management Project plan stated that the IOA would initiate
training for approximately 1,700 newly-hired Immigration Officers. Sufficient training
classes were scheduled and conducted to accommodate a total of 1,789 IOA basic training
starts in FY 1997, including Module III training, resulting in INS successfully meeting
its FY 1997 goal of promptly providing IOA training for all newly-hired Immigration
Officers.
Included in the IOA training for newly-hired Immigration Officers, INS scheduled nine
OTP Inspector classes for FY 1997 to eliminate a backlog of over 200 OTP Inspectors who
were hired in previous years but who had only received local, not FLETC, training. INS
policy prohibits these officers from carrying weapons until they have received FLETC
firearms training, which 198 of them now have received. INS' FY 1997 basic training
schedule also included Law Enforcement Module classes for approximately 330 Immigration
Inspectors who were only partially trained at Charleston in FY 1996.
The Quality of Inspector Training at Charleston Was
Consistent with Glynco, but Did Not Include Law Enforcement Subjects
Because INS training needs exceeded the available capacity of FLETC facilities in
Glynco, approximately 500 Immigration Inspectors were trained in FY 1996 at INS' adjunct
training facility in Charleston. The quality of training for those classes
delivered at Charleston was consistent with that of Glynco. However, INS did not provide
law enforcement training, including weapons instruction and qualification, for Inspectors
at the Charleston facility. As of March 1, 1997, approximately 200 of the total 500
Inspectors had not received law enforcement training. Thirty-three of these
partially-trained, unarmed Inspectors were stationed at land-border ports of entry along
the Southwest border where Inspectors normally perform their duties while armed. INS
land-border ports of entry took reasonable steps to ensure that the inability of the
partially-trained Inspectors to carry weapons did not adversely affect safety or the
inspection mission. By the end of FY 1997, all but two of these Inspectors had completed
their training at Glynco.
Due to its increased training requirements, INS opened its adjunct training facility in
Charleston during FY 1996. INS intended to use this facility primarily for Border Patrol
basic training. However, classrooms and dormitories became available several months prior
to the availability of weapons and driving instruction facilities. INS decided to delay
Border Patrol occupancy until weapons and driving instruction facilities were ready. INS
used Charleston prior to Border Patrol occupancy by conducting some partial training for
Immigration Inspectors there between April and September 1996. INS planned to provide the
Immigration Law, Activity Preparation, and Spanish Modules at Charleston and the Law
Enforcement Module at a later date at Glynco. Officers trained at Charleston spent
anywhere from two weeks to several months at their duty stations on active duty without
having had law enforcement training.
A total of 533 Immigration Officers started training at Charleston and 500 completed
the training. Of the 500, 491 were Immigration Inspectors. Of the other nine, five were
District Adjudications Officers. The remaining four began as Immigration Inspectors but
accepted offers for other Immigration Officer positions sometime after beginning or
completing the Charleston training.
At INS' request, FLETC fit five law enforcement module classes into the FY 1996
schedule at Glynco. INS gave priority for attending these classes to the approximately 275
partially-trained Immigration Inspectors who were assigned to Southwest land-border ports
of entry. Of the 168 individuals given Law Enforcement Module instruction in FY 1996, all
but 4 were stationed on the Southwest border. The FY 1997 training plan included 15 Law
Enforcement Module classes, which were sufficient to train the 330 Immigration Inspectors
who did not receive Law Enforcement Module training in FY 1996. As of March 1, 1997, there
were still 206 Immigration Inspectors who had not completed law enforcement training, 33
of whom were stationed on the Southwest border. As of the end of FY 1997, all but 2 of
these 206 had completed their training. Those two were on military deployments to Bosnia.
Newly-trained Immigration Inspectors who had not completed all of their basic training
assumed primary line positions at land-border ports of entry in at least two districts.
Inspectors working at the land-border ports of entry face potentially dangerous situations
because of drug and alien smugglers attempting to illegally enter the United States. Some
of these illegal entrants are armed. In the San Diego and El Paso districts, the
partially-trained, unarmed officers served in primary line positions with armed officers
in adjacent inspection lanes. To further diminish the risk posed by working unarmed, INS
had several armed, roving inspectors observing the operations, ready to assist if needed.
We believe the overall quality of the Immigration Inspector courses taught at
Charleston was consistent with the quality of those same courses taught at Glynco. The
courses taught at both sites used identical curricula, and INS provided the same number of
hours of instruction for similar courses taught at the two sites. Students' test results
in the various academic subjects at the two sites were also substantially the same, and
the two sites had comparable attrition rates. Charleston used a large number of
instructors detailed from the field, while Glynco used fewer detailed instructors. All of
these detailed instructors had received instructor training provided by FLETC. Student
end-of-class evaluations at both Charleston and Glynco rated course content, course
delivery, and overall assessment as very good.4
Students, instructors, and supervisors we interviewed at both sites also generally
concurred that courses were well taught.
INS had a large influx of new officers to train in FY 1996. The partial-training
approach used at Charleston enabled INS to train sufficient numbers of Immigration
Inspectors while maintaining the overall quality of training. However, INS took risks by
having partially-trained, unarmed officers work even a limited time in vulnerable and
potentially dangerous situations. While we believe these risks were mitigated by INS
districts, in the future, INS should not assign unarmed inspectors, who have not received
law enforcement training, to land-border duty stations.
IOA Language Training May Not Meet the Needs of All
Immigration Officers
Similar Spanish language courses are provided to most IOA classes, regardless of
occupation or anticipated duty station. A majority of INS supervisors with whom we spoke
are concerned that a significant number of recent IOA graduates in certain job categories
lack the Spanish language proficiency necessary for their jobs. These job categories
include Special Agents, Immigration Agents, and Immigration Inspectors stationed at the
Southwest border. Most IOA graduates we interviewed in these job categories also
stated that their IOA Spanish language training did not adequately prepare them for their
jobs.
All IOA classes, except Detention Enforcement Officers and OTP Inspectors, receive similar
Spanish language courses. Complete fluency in Spanish is not needed for all Immigration
Officer jobs; in practice, the necessary skill level varies with the actual job. For
example, when an Immigration Inspector suspects an immigration violation, the Inspector
will often need to deviate from rote questions to explore in more depth an individual's
eligibility to enter the United States. Although complete fluency is not needed in such
instances, a working knowledge of the language is often necessary to determine if the
Inspector's suspicions require secondary inspection.5
During criminal investigations, interviews conducted by INS Special Agents and
Immigration Agents often require a high degree of fluency in both formal Spanish and the
idiomatic language of the streets. Non-native speakers recently graduating from the IOA
frequently lack adequate Spanish skills to perform well in these situations. Most
supervisors with whom we met told us that the recent graduates of the IOA Spanish program,
especially Inspectors (at the Southwest border), Immigration Agents and Special Agents, do
not have the Spanish skills necessary for their jobs. Most IOA graduates confirmed this
deficiency even though all had passed the Spanish course at the Academy.
Supervisors informed us this deficiency occurred in the past as well, but the level of
the impact is greater now with the influx of new officers. Previously, if the new officers
had trouble speaking Spanish, the effect was lessened because they were paired with
experienced officers and received on-the-job training in Spanish. With a higher ratio of
new to experienced officers, it is more difficult to ensure that new officers are always
paired with more experienced officers. Investigations supervisors in the field told us
that in many cases they have to keep the new agents in the office working on paperwork
until they have had additional language training, because their lack of Spanish skills
prevents them from effectively working on the streets. These new officers could be working
in the office on paperwork for up to several months. In at least one location we visited,
the supervisor was encouraging the officers to enroll in Spanish courses at the local
college.
The Training Division's Research and Evaluation Section performed a study in late 1994
comparing the job-related effectiveness of Spanish language training between the Border
Patrol Academy (BPA) and the IOA. This study compared Spanish language training
evaluations that had been previously performed by the Research and Evaluation Section for
three BPA classes and four Immigration Inspector classes. The class evaluations used a
survey instrument directed to graduates and their supervisors. The survey instrument asked
respondents a series of questions regarding the effectiveness of the language training in
preparing the graduates to perform job-related tasks. Respondents rated the effectiveness
of their Spanish language training on a scale of one through five; one indicating that the
training was not effective, two -marginal, three - average, four - good, and five -
superior.
The study found that the average ratings from IOA graduates and their supervisors were
3.75 and 3.32, respectively. BPA graduates rated the training at an average of 3.51 and
their supervisors at 2.75. The study concluded that neither the IOA nor the BPA Spanish
training showed an advantage in job-related effectiveness, and that both seemed to be
adequately fulfilling the requirements for which they were designed. However, the study
did not purport to show that either academy's graduates learned more Spanish in their
respective courses or were more proficient in Spanish upon graduation than their
counterparts. The study also included no evaluations of Special Agent or Immigration Agent
classes, occupations for which our interviews indicated Spanish language problems.
Some Immigration Officers and their supervisors told us that BPA graduates are better
prepared in Spanish than IOA graduates. Staff of the IOA Spanish Department also told us
that the BPA approach to Spanish training was more effective and that IOA Spanish training
needed improvement. Some Immigration Officers have attributed differences in Spanish
language capability to differences in the Border Patrol employee selection process. Border
Patrol applicants must pass either a Spanish proficiency test or an artificial language
test designed to predict the ability to learn Spanish. No such testing is required for
Immigration Officer applicants.
Differences also exist between the IOA and BPA in how the instruction is scheduled. The
BPA provides two hours of Spanish instruction each day for the entire 18 weeks that BPA
trainees attend the school, and Spanish is often used in conducting BPA practical
exercises. The IOA, however, presents a very limited amount of initial Spanish instruction
(totaling 23 hours) interspersed with the other regular training courses. A Spanish test
is subsequently given by the IOA, and those trainees that pass the test are considered
proficient in Spanish and are graduated from the course. Those that do not pass, however,
then receive additional intensive Spanish instruction. This subsequent instruction covers
8 hours per day for 23 days within a 5-week period.
The study also found that approximately 35 percent of the Immigration Inspectors do not
need Spanish language ability because they are placed in INS locations where Spanish
speakers are rarely encountered. The Spanish skills of such officers typically diminish
over time, so if the officers are ever reassigned to a Spanish speaking post, they are
ill-prepared.
Neither the Research and Evaluation Section language study, nor our limited interviews,
provide a definitive answer on the effectiveness of INS Spanish language training. The
study's authors recognized the limitations of their methodology and reported that a
definitive answer would require a study methodology involving random sampling of the study
population, pre-testing to establish a baseline of skills, and post-testing to assess
which training provided the greatest gain. We suggest that the Training Division review
IOA Spanish training to develop and implement a plan to ensure that all Immigration
Officers have the language skills necessary for optimum job performance. Measures worthy
of consideration include testing the language aptitude of Immigration Officer applicants
and tailoring Spanish instruction to the demands of different Immigration Officer duty
assignments.
INS Needs to Complete the Validation of IOA Basic
Training Courses
A professional training program requires the periodic validation of training courses
to ensure that course material is current, accurate, and relevant. INS' standard operating
procedures require validating IOA training courses at least every five years. INS has
failed to complete current validations for most IOA basic training courses.
Each Immigration Officer occupation requires a curriculum tailored to that occupation.
INS' procedures require periodic validation to verify that curricula are relevant,
accurate, and up to date. The INS validation process is divided into two parts. Phase I
includes identifying all critical tasks required of a particular INS occupation. Phase II
entails matching these tasks with the existing training curriculum to ensure adequate
coverage of each critical task. Phase II also includes making additions to the curriculum
to cover new tasks as well as eliminating material that has become obsolete.
Responsibility for completing Phase I of all INS course validations rests with the
Training Division's Research and Evaluation Section. The responsibility for completing
Phase II has been assigned to the IOA.
Because the periodic validation of course material is essential to maintaining a sound
training program, INS has adopted a Standard Operating Procedure for conducting course
validations at least every 5 years. Because passing these courses is a condition of
employment, their validation is further required by Department of Justice regulation.
Section 5 of The Uniform Guidelines on Employee Selection Procedures, at 28 FR 50.14,
requires the validation of each training course where the failure to pass a course of
study could result in termination of the employee.
Our review of INS' validation work done since 1990 shows a consistent failure on the
part of the IOA to do any Phase II validation work, raising the risk that the training
curriculum may be irrelevant or obsolete. Although the Research and Evaluation Section has
performed several Phase I validations, they have not completed validation work relating to
Special Agents or Immigration Inspectors. Due to staff shortages, the projected completion
date is March 1998 for the Phase I validations for these two occupations.
Exportable Training May Prove to be Efficient
and Effective, but Has Experienced Considerable Delays and Needs More Training Division
Oversight
For several benefits-related occupations, INS developed exportable basic training
courses that are designed to be offered at locations other than IOA facilities. Exportable
basic training will relieve the severe strain on training capacity at IOA facilities and
may prove to be an efficient and effective alternative to academy-based training. While
almost 600 benefits-related officers were projected to be hired in FY 1997, the exportable
training was delayed twice and did not begin until April 1997. Once exportable training
did begin, it was primarily conducted for Information and Asylum Officers. INS provided
exportable training to several hundred temporary staff hired as part of the Citizenship
USA program to adjudicate naturalization applications. Neither the Training Division nor
any other INS headquarters organization provided oversight over the training given to
these temporary adjudicators, which was delivered inconsistently from site to site. INS
needs to provide sufficient oversight of the delivery of all exportable training to ensure
standards of consistency and quality are met.
Due to the overload on the training facilities caused by the influx of new officers,
and following a reevaluation of the training needs of Immigration Officers, INS developed
its exportable training concept. INS decided that certain benefits-related Immigration
Officer occupations would not require Spanish language training or law enforcement
training. Excluding law enforcement training made the exportable concept practical by
enabling training at sites other than FLETC facilities. The exportable Immigration Officer
basic training curriculum is designed to be delivered at field sites other than IOA
facilities. The exportable curriculum consists of the Immigration Law and the Activity
Preparation modules.
Exportable training was designed for the benefits-related occupations of District and
Center Adjudications Officers, Information Officers, and Asylum Officers. Prior to
development of exportable training, Information Officers had never received any formal
basic officer training. Asylum Officers had only received training equivalent to the
Activity Preparation Module, which had been developed and conducted in the field by the
Asylum Division without the participation of the Training Division. District and Center
Adjudications Officers, previously known as Examiners, had been receiving basic officer
training on-site at the IOA.
The first exportable Immigration Officer basic training class was conducted for
Information Officers at the Vermont Service Center in November 1995.6 There were approximately 20 exportable classes
conducted in FY 1996, with a total of 464 students. All of the classes were for Asylum
Officers or Information Officers. A total of 231 Information Officers and 233 Asylum
Officers were trained in these classes. Trainers conducted the classes at the Service
Centers, with the exception of one that was conducted in New York City. The trainers were
all Adjudications Officers from the Service Centers who volunteered to be instructors. INS
conducted one week of instructor training at Glynco for these trainers.
An INS task force with participants from the Asylum Division, the Benefits Division,
and the IOA rewrote the exportable curriculum, finishing in September 1996. The
Adjudications Officer curriculum was a primary focus of the rewriting. The Research and
Evaluation Section completed Phase I, its portion, of the validation of the new curriculum
in September 1996. However, since the completion of the curriculum rewrite and validation,
the Illegal Immigration Reform and Immigrant Responsibility Act of 1996 was signed into
law. Changes in immigration law due to the Act required a major rewrite of the Immigration
Law Module of the exportable curriculum.
The INS Growth Management Project anticipated training over 600 new Adjudications
Officers, Asylum Officers, and Information Officers in FY 1997. However, exportable
training for FY 1997, which was scheduled to begin on January 1, 1997, was delayed and
rescheduled for after April 1, 1997, because of necessary Immigration Law curriculum
revisions. One exportable class was conducted in February 1997 to provide the Activity
Preparation Module to Asylum Officers who had received the Immigration Law Module in FY
1996. After April 1, 1997, some exportable training was conducted for Immigration
Information Officers and Asylum Officers, but only two exportable classes were conducted
for Center Adjudications and District Adjudications Officers. With the exception of these
classes, one held in Dallas, and one held in Vermont near the end of the FY, there was no
basic training for Adjudications Officers in FY 1997. For FY 1998, all Adjudications
Officer basic training was scheduled to take place at the IOA in Glynco.
We reviewed the Benefits Division's draft Standard Operating Procedures (SOP) for
implementing the exportable benefits training program for Adjudications Officers, Asylum
Officers, and Information Officers. According to this draft SOP, the headquarters
Adjudications Program would have the primary responsibility for direct oversight of the
exportable benefits training program, including ensuring that measures were established to
monitor and evaluate the program. Implementation of this SOP would have effectively
removed most of the Training Division's responsibility and authority over the training of
Adjudications Officers, Asylum Officers and Information Officers. The draft SOP was not
signed or agreed upon by the Training Division because of concerns over its loss of
control over a major portion of basic training. Subsequent meetings between the Training
and Benefits Divisions have helped to resolve this issue. A May 16, 1997, memorandum from
the Assistant Commissioner for Benefits to the Director of Training acknowledges that
headquarters Training is the "owner" of the exportable training program, and
establishes an understanding of the respective divisions' responsibilities for exportable
training. The Commissioner of INS needs to complete the resolution of this issue by
issuing procedures that clearly assign authority and responsibility for oversight of
exportable basic training programs.
Citizenship USA
A separate exportable training program was developed for temporary adjudicators hired
for the Citizenship USA (CUSA) program. CUSA was created as a one-year effort to address
the unprecedented number of naturalization applications awaiting review at INS district
offices. This nationwide program involved all of the INS districts. However, only the five
districts with the largest backlog of naturalization applications - Los Angeles, Chicago,
New York City, Miami, and San Francisco (the five key cities) - initially were provided
additional staffing. This additional staffing included District Adjudications Officers
hired on both a permanent and temporary basis.
A team composed of CUSA staff, IOA staff, and trainers from the five key cities
collaborated on the development of a compressed training program based on the established
Immigration Officer basic training course for naturalization. This 37-hour CUSA training
program was designed to be delivered to approximately 250 temporary adjudicators in the
five key cities.
Seventeen CUSA trainers received a one-week training program on instructor techniques
at the IOA in Glynco. The new instructors then returned to their respective districts to
begin training recruits. The IOA provided the instructors with lesson plans and additional
training materials. However, the IOA permitted the trainers to develop their own lesson
plans, provided that the IOA course material was covered. The trainers administered
identical tests at the start and completion of the course. The final test was open book
and no students failed. Tests were graded by the trainers with the graded score sheets
forwarded to the IOA.
Hiring of additional staff continued in the five key cities and expanded to other
district offices. A majority of the staff members at the five key cities was hired from
February to July 1996. Hiring also was conducted in other districts with smaller case
loads. Fifteen cities in thirteen of these districts were included in CUSA as second-tier
cities. During FY 1996, approximately 80-85 CUSA employees were hired in the second-tier
cities. CUSA program managers told us that CUSA training in the second-tier cities would
follow the same curriculum as prescribed for the five key cities, but course delivery
would be the responsibility of local training officers.
While we did not attempt to assess the ability of CUSA adjudicators to perform their
duties, we observed that their initial training lacked standardization. The length of
actual training provided varied by location and for individual trainees at the same
location. Some trainers developed their own lesson plans while others used the IOA lesson
plans exclusively. In one district that we visited, the lesson plans and course materials
were received after the training had been provided.
The size and complexity of the INS training mission requires a high degree of
coordination and diligent oversight. CUSA training and all programs providing basic
training to either permanent or temporary Immigration Officers should receive sufficient
INS headquarters oversight to ensure that critical training is provided in accordance with
established standards of consistency and quality. In the case of CUSA training, neither
the Training Division nor any other INS headquarters organization provided such oversight.
#####